           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     MATCH OF VETERANS AFFAIRS’
   HISTORICAL DEATH FILE AGAINST
        THE SOCIAL SECURITY
   ADMINISTRATION’S BENEFIT ROLLS

     June 2006    A-01-05-35086




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   June 14, 2006                                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Match of Veterans Affairs’ Historical Death File against the Social Security
        Administration’s Benefit Rolls (A-01-05-35086)


        OBJECTIVE
        Our objective was to determine whether individuals recorded as deceased on the
        Department of Veterans Affairs’ (VA) historical death file continued to receive Old-Age,
        Survivors and Disability Insurance (OASDI) benefits and/or Supplemental Security
        Income (SSI) payments.

        BACKGROUND
        The Social Security Administration (SSA) administers the OASDI and SSI programs
        under Title II and Title XVI of the Social Security Act, respectively. The OASDI program
        provides benefits to retired and disabled workers, including their dependents and
        survivors. The SSI program provides payments to financially needy individuals who are
        aged, blind or disabled. In Fiscal Year 2005, SSA paid approximately $522.1 billion in
        OASDI benefits to about 48.2 million beneficiaries—and approximately $36.2 billion in
        SSI payments to about 7.1 million recipients. 1

        Under both the OASDI and SSI programs, benefit payments to a beneficiary should
        terminate once the individual dies. 2 The Agency receives death information from a
        variety of sources, such as friends and relatives of deceased individuals, funeral homes,




        1
          SSA, Performance and Accountability Report, Fiscal Year 2005, pages 8 and 117. The 7.1 million
        individuals receiving SSI payments include 2.5 million individuals receiving both SSI payments and
        OASDI benefits.

        2
            20 C.F.R. §§ 404.311, 404.316, 404.332, 404.337, 404.341, 404.352, 404.371, and 416.1334.
Page 2 - The Commissioner


financial institutions, and Federal and State agencies, including VA. 3 (For information
about SSA’s death matching and alert process, see Appendix B.)

SSA routinely receives death information from VA. In our February 2002 audit report,
we found SSA had not been processing VA death information due to formatting issues
associated with the files received from VA. 4 In March 2005, the Agency resumed its
match of VA death information against the OASDI and SSI benefit rolls. 5

To gain assurance that all deaths reported to VA were matched against SSA’s benefit
rolls, we obtained a historical death file from VA as of May 2004. Through data
analysis, we identified 1,691 individuals who were recorded as deceased per VA, but
who appeared to continue to be paid OASDI benefits and/or SSI payments. We
randomly sampled 200 of the 1,691 records for detailed analysis. (For more information
on our scope, methodology and sample results, see Appendix C.)

RESULTS OF REVIEW
Based on our review, we estimate SSA paid approximately $11.7 million in benefits after
the deaths of about 228 beneficiaries. Although the Agency discovered some of the
improper payments prior to our audit, we estimate about $11.2 million went undetected.
Further, we estimate SSA will continue to incorrectly pay about $1.9 million over the
next 12 months if the deceased beneficiaries in the population are not identified and
their benefits stopped.

Of the 200 cases we sampled:
                                                                Sample Results: 200 Beneficiaries

   27 beneficiaries (14 percent) were                      171 Not                      2 Still Being
                                                                                          Reviewed
    deceased and about $1.4 million was                    Deceased

    paid after their deaths;
                                                                                              27 Deceased;
   171 beneficiaries (85 percent) were not                                                    $1.4 Million
                                                                                                Paid After
    deceased; and                                                                                Death

   2 beneficiaries (1 percent) were still
    being reviewed by the Agency as of
    May 2006.



3
 SSA is currently participating in Electronic Death Registration—a State initiative that SSA supports with
partial funding. Through this initiative, the Agency can receive verified death data from the States within
5 days of the date of death and within 24 hours of the record’s receipt in the State repository.
4
 SSA Office of the Inspector General, Controls Over the Social Security Administration’s Processing of
Death Records from the Department of Veterans Affairs (A-01-01-21038), February 2002.
5
 SSA, Emergency Message EM-05010 SEN (February 2005) and Administrative Message AM-05041
(March 2005).
Page 3 - The Commissioner


BENEFITS PAID AFTER DEATH

In total, 27 beneficiaries in our sample died prior to May 2004. Although the Agency
detected the deaths of 2 beneficiaries prior to our audit, SSA was not aware the
remaining 25 beneficiaries were deceased. 6 As a result, about $1.3 million in benefit
payments was incorrectly issued after the beneficiaries died. On average, SSA
continued benefits for 86 months (or about 7 years) after the beneficiary’s death. As of
May 2006, SSA recovered $113,809 (approximately 9 percent) of the $1.3 million that
was paid after death.

In one example, SSA continued to deposit benefits to the bank account of a beneficiary
who, according to VA, died in February 2002. At our request, SSA staff reviewed the
case and found that the beneficiary was, in fact, deceased. SSA determined that
$43,886 in benefits was incorrectly paid between February 2002 and January 2006.
SSA staff referred the case to the Inspector General’s Office of Investigations because
fraud was suspected. Investigators found that the beneficiary’s cousin used the funds
that were paid after the beneficiary’s death. The United States Attorneys Office
accepted the case for criminal prosecution. 7

SSA informed us that, in February 2005, VA provided the Agency with a file which
contained all of the death records that had not been processed since 2002. However,
we found that SSA continued to pay benefits to 25 individuals in our sample even
though the file we received from VA to perform our audit indicated they all died prior to
February 2005. We were unable to determine whether any of these individuals were
included in the file SSA received from VA in February 2005 and, if so, whether the
Agency previously matched the records to the benefit rolls and identified them for
review through its death system because the data was not retained by the Agency.

The 25 beneficiaries whose deaths were not detected by SSA until our audit are shown
in the following table, by year of death.

                                 Year of Death               Beneficiaries
                                  1990 to 1995                      5
                                       1996                         3
                                       1997                         1
                                       1998                         3
                                       1999                         3
                                       2000                         2

6
  Included in these 25 cases are 2 in which SSA stopped the payments because the beneficiaries did not
respond to the Agency’s contact attempts. Although at least three benefit payments were withheld from
these beneficiaries, the Agency received no response from them as of May 2006—an indication they are
likely deceased.
7
 In May 2006, the Office of Investigations initiated a National investigative project to track the results of
all cases from this audit that are referred by SSA’s Field Office personnel because fraud was suspected.
Page 4 - The Commissioner


                               Year of Death              Beneficiaries
                                    2001                         2
                                    2002                         2
                                    2003                         1
                                    2004                         3
                                    Total                       25

ACCURACY OF VA DEATH INFORMATION

In total, 171 individuals in our sample were not deceased as of May 2004. For 169 of
these cases, we researched available data on SSA’s systems and/or contacted
appropriate Agency personnel and found that the deaths reported by VA were
erroneous. 8 For example, one beneficiary died in February 2000 according to VA.
However, based on our review of information on SSA’s systems, we determined that VA
had incorrectly reported the spouse’s death under the beneficiary’s Social Security
number.

The erroneous death information received from VA was not unique to the historical
death file we used for our audit. In March 2005, when SSA resumed processing of
death information received from VA, the Agency acknowledged the limitations with the
data but indicated there was no way to readily identify the erroneous deaths. SSA
instructed staff to work the alerts that resulted from the VA match as usual “…to reduce
the amount of any potential overpayment or to stop potential fraud.” 9

CONCLUSION AND RECOMMENDATION
Although many of the records from VA contained erroneous death information, those
that had correct dates of death resulted in significant undetected improper payments (an
estimated $11.7 million), and in some cases, involved possible fraud. Furthermore, we
estimate that SSA will continue to incorrectly pay about $1.9 million over the next
12 months if the deceased beneficiaries in the population are not identified and their
benefits stopped. Therefore, we recommend SSA review the remaining 1,167 cases in
our audit population in which it appears payments may have been issued after death. 10




8
  For the remaining 2 cases, the Social Security numbers recorded on SSA’s benefit records were
incorrect and the individuals reported as deceased per VA were not the same individuals receiving Social
Security benefits. (The 169 includes 9 beneficiaries who died after May 2004.)
9
    SSA, Administrative Message AM-05041 (March 2005).
10
  The 1,167 records represent the remaining 1,491 cases in our population, less those in which: (1) SSA
terminated benefits subsequent to our review, or (2) the deaths reported by VA appeared to be
erroneous.
Page 5 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendation. (See Appendix D for SSA’s Comments.)




                                          S
                                          Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Resolving Death Alerts
APPENDIX C – Scope, Methodology and Sample Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DACUS    Death Alert, Control and Update System
OASDI    Old-Age, Survivors and Disability Insurance
SSA      Social Security Administration
SSI      Supplemental Security Income
VA       Department of Veterans Affairs
                                                                                 Appendix B

Resolving Death Alerts
Under both the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
Security Income (SSI) programs, benefit payments to a beneficiary should terminate
once the individual dies. 1 Using its Death Alert, Control and Update System (DACUS),
the Social Security Administration (SSA) matches death information obtained from
various sources against its payment records to identify and prevent incorrect payments
issued after beneficiaries’ deaths. For beneficiaries in which it appears benefits may
have been issued after death, DACUS generates death alerts.

According to SSA, all death alerts should be resolved within 30 days. 2 When death
alerts are first issued, SSA Field Office staff attempt to contact someone at the
beneficiary’s residence by telephone. If the telephone call is unsuccessful, a letter is
sent to the beneficiary’s home requesting that the individual come to their local SSA
Field Office for an in-person interview to ensure the beneficiary is, in fact, alive.

     For an OASDI beneficiary, if no response is received within 20 days, the Agency
      suspends benefit payments pending its development of the death alert. If no
      response is received from the beneficiary within 60 days of suspending benefits, the
      individual’s benefit record is terminated due to death. 3

     For an SSI recipient, if no response is received within 30 days, SSA may suspend
      SSI payments for failure to provide information. 4 If the recipient does not respond
      within an appropriate timeframe after payments are suspended, the individual’s SSI
      payments may be terminated due to death. 5




1
    20 C.F.R. §§ 404.311, 404.316, 404.332, 404.337, 404.341, 404.352, 404.371, and 416.1334.
2
    SSA, Program Operations Manual System, GN 02602.065.
3
    SSA, Program Operations Manual System, GN 02602.071.
4
    SSA, Program Operations Manual System, SI 02301.235.
5
    SSA, Death Alert Guide for Field Offices, November 2004.
                                                                                   Appendix C

Scope, Methodology and Sample Results
To accomplish our objective, we:
   Reviewed applicable sections of the Social Security Act, the Code of Federal
    Regulations, and the Social Security Administration‘s (SSA) Program Operations
    Manual System.

   Obtained from the Department of Veterans’ Affairs (VA) a file containing
    17,051,114 death records as of May 2004 and matched it against SSA’s benefit rolls
    to identify those who were recorded as deceased per VA’s file but appeared to be
    receiving Old-Age, Survivors and Disability Insurance (OASDI) benefits and/or
    Supplemental Security Income (SSI) payments.

    1. We excluded cases in which it appeared the deaths were erroneous (for example
       the beneficiaries received critical payments or had alleged dates of death prior to
       the beneficiaries’ dates of entitlement). 1

    2. We identified 1,691 individuals recorded as deceased per VA's historical death
       file who appeared to be receiving OASDI benefits and/or SSI payments as of
       June 2005. 2

    3. We selected a random sample of 200 individuals from the population we
       identified for analysis. We researched available data on SSA’s systems and/or
       contacted appropriate Agency employees to determine whether the individuals
       recorded as deceased per the VA death file were, in fact, deceased OASDI
       beneficiaries or SSI recipients.

We conducted our review between October 2005 and March 2006 in Boston,
Massachusetts. We determined that the data we obtained from SSA was sufficiently
reliable to meet our audit objective. Although the information we obtained from VA
contained some erroneous death information (as noted in the body of this report), the
data was sufficiently reliable to meet our audit objective. The principal entities audited
were SSA’s Field Offices under the Deputy Commissioner for Operations and SSA’s
Office of Earnings, Enumeration, and Administrative Systems under the Deputy
Commissioner for Systems. We conducted our audit in accordance with generally
accepted government auditing standards.


1
 The Critical Payment System pays retroactive OASDI benefits in special situations where benefit
payments are not made because of processing errors—such as erroneous death terminations.
2
  SSA was unable to confirm whether any of the 1,691 records we identified were previously matched by
the Agency to the benefit rolls and identified for review through its death alert system because the data
was not retained by the Agency.


                                                   C-1
SAMPLE RESULTS

Table 1: Population and Sample Size
Population Size                                                                                1,691
Sample Size                                                                                          200

Table 2: Benefit Payments Issued After Death – Not                      Number of
                                                                                              Dollars
Identified Until Our Audit                                             Beneficiaries
Identified in Sample                                                            25          $1,320,836
Point Estimate                                                                211          $11,167,668
Projection Lower Limit                                                        153           $7,115,073
Projection Upper Limit                                                        283          $15,220,263
Note: All projections are at the 90-percent confidence level.

Table 3: Total Benefit Payments Issued After Death                       Number of
                                                                                              Dollars
                                                                        Beneficiaries
Identified in Sample                                                            27          $1,388,979
Point Estimate                                                                 228         $11,743,817
Projection Lower Limit                                                         168          $7,652,021
Projection Upper Limit                                                         301         $15,835,614
Note: All projections are at the 90-percent confidence level.

Table 4: Payments SSA Will Continue to Issue Over                        Number of
12 Months Unless the Deaths are Identified and the                      Beneficiaries         Dollars
Benefits are Stopped
Identified in Sample 3                                                          25             $229,680
Point Estimate                                                                 211          $1,940,796
Projection Lower Limit                                                         153          $1,329,799
Projection Upper Limit                                                         283          $2,551,793
Note: All projections are at the 90-percent confidence level.




3
 The $229,680 represents the total of the last monthly benefits for the 25 beneficiaries ($19,140)
multiplied by 12 months.


                                                    C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      May 26, 2006                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Match of Veterans Affairs' Historical
           Death File Against the Social Security Administration's Benefit Rolls" (A-01-05-35086)—
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "MATCH OF VETERANS AFFAIRS' HISTORICAL DEATH FILE AGAINST
THE SOCIAL SECURITY ADMINISTRATION'S BENEFIT ROLLS"
(A-01-05-35086)--INFORMATION

Thank you for the opportunity to review and comment on the draft report.

As stated in the draft report, the Department of Veteran’s Affairs (VA) changed the format of the
death alert file transmitted to the Social Security Administration (SSA) in 2002. This change
prevented SSA from processing death alerts from their records until the VA sent SSA a
reformatted file in February of 2005 containing all of the death records that had been held up
since 2002. However, the report does not reflect SSA's efforts afterward.

The inaccuracy of VA death data has resulted in SSA electronically screening this information
prior to establishing alerts. In particular, a notorious source of inaccuracy has been VA’s
mistaken use of a claims account number in place of the Social Security number. Accordingly,
SSA screened the VA records to remove those that had already been identified as needing the
above correction and sent the remaining records through the Death Alert Control Update System
(DACUS) for processing on February 14, 2005, generating 2,343 DACUS alerts. When the
initial alerts were received, the regions reported several cases where it appeared the beneficiaries
were still alive, especially when the date of death reported was prior to 2004 (i.e., approximately
870 of the 2,343 individuals identified, or 37 percent, were still alive).

On February 17, 2005, we issued an emergency message (EM 05010-SEN) alerting components
in Operations of the file from VA containing deaths that had not been processed by SSA since
2002. The EM instructed Operations to delay the development of the most error prone alerts
(alerts with a date of death earlier than December 2004), to avoid possible unnecessary
development and to prevent potential public relations problems, until further review of these
cases could be done. The remaining alerts (with a date of death of December 2004 or later) were
processed immediately.

On March 23, 2005, after discussing several different options for processing these potentially
erroneous alerts with the Office of Income Security Programs (OISP), SSA issued
Administrative Message (AM) 05041, advising Operations to start processing all VA DACUS
alerts, regardless of the date of death. The AM also advised Operations to be alert to potential
violations or fraud, per Program Operations Manual System (POMS) sections GN 04110.005 and
AM-00194, while developing the alerts. Specifically, if it was determined that 6 or more
payments had been issued or deposited into bank accounts after the date of death, the case must
be referred to the OIG following the instructions in POMS GN 04111.005.




                                                D-2
Recommendation

SSA should review the remaining 1,167 cases in the OIG audit population in which it appears
payments may have been issued after death.

Comment

We agree with the recommendation. Of the original 1,491 cases identified, OIG determined after
further review that 324 cases could be excluded leaving only 1,167 to be reviewed and
processed. Listings of the remaining 1,167 cases have already been sent to the regions for
review and processing. The regions have been advised to take the appropriate action including
referral to the OIG if applicable. We will provide the results to the Inspectors upon completion
of the review of the cases.




                                              D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

Acknowledgments

In addition to those named above:

   Jeffrey Brown, Senior Auditor

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-35086.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
